App. 1
ADDENDUM A: LIST OF AMICI
Retired Bankruptcy Judges
Hon. Judith K. Fitzgerald (ret.)
Hon. Bruce Markell (ret.)
Northwestern Pritzker School of Law
Hon. Eugene Wedoff (ret.)
Law Professors
Professor Bruce Grohsgal
Widener University, Delaware School of Law
Professor Ingrid Hillinger
Boston University Law School
Professor George Kuney
University of Tennessee Law School
Professor Stephen J. Lubben
Seton Hall Law School
Professor Juliet M. Moringello
Widener University Commonwealth Law School
Professor Nancy Rapoport
William S. Boyd School of Law
University of Nevada, Las Vegas
Professor Gary Sullivan
University of Alabama School of Law
Professor Walter Taggart
Charles Widger School of Law
Professor Jack Williams
Georgia State University

